<html>
<title> - [H.A.S.C.  No. 113-108]NATIONAL DEFENSE PRIORITIES FROM MEMBERS FOR THE FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 113-108]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

            NATIONAL DEFENSE PRIORITIES FROM MEMBERS FOR THE

          FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION ACT

                               __________

                              HEARING HELD

                             APRIL 9, 2014

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                    


                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

88-453                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001







                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDRE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California                TULSI GABBARD, Hawaii
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
               Jaime Cheshire, Professional Staff Member
                           Aaron Falk, Clerk

















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Wednesday, April 9, 2014, National Defense Priorities from 
  Members for the Fiscal Year 2015 National Defense Authorization 
  Act............................................................     1

Appendix:

Wednesday, April 9, 2014.........................................    39
                              ----------                              

                        WEDNESDAY, APRIL 9, 2014
   NATIONAL DEFENSE PRIORITIES FROM MEMBERS FOR THE FISCAL YEAR 2015 
                   NATIONAL DEFENSE AUTHORIZATION ACT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Barr, Hon. Andy, a Representative from Kentucky..................    27
Blackburn, Hon. Marsha, a Representative from Tennessee..........    18
Broun, Hon. Paul C., a Representative from Georgia...............    16
Chu, Hon. Judy, a Representative from California.................    21
Collins, Hon. Doug, a Representative from Georgia................     5
Crawford, Hon. Eric A. ``Rick,'' a Representative from Arkansas..    33
DeSantis, Hon. Ron, a Representative from Florida................    10
Ellmers, Hon. Renee L., a Representative from North Carolina.....     3
Graves, Hon. Sam, a Representative from Missouri.................    13
Hanna, Hon. Richard L., a Representative from New York...........    15
Heck, Hon. Denny, a Representative from Washington...............    19
Hudson, Hon. Richard, a Representative from North Carolina.......    34
Lowenthal, Hon. Alan S., a Representative from California........    25
Meng, Hon. Grace, a Representative from New York.................    24
Nunes, Hon. Devin, a Representative from California..............    36
O'Rourke, Hon. Beto, a Representative from Texas.................     2
Perry, Hon. Scott, a Representative from Pennsylvania............    29
Pierluisi, Hon. Pedro R., Resident Commissioner from Puerto Rico.     8
Posey, Hon. Bill, a Representative from Florida..................     6
Ribble, Hon. Reid J., a Representative from Wisconsin............    23
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     1
Thornberry, Hon. Mac, a Representative from Texas, Committee on 
  Armed Services.................................................     1
Tonko, Hon. Paul, a Representative from New York.................    11
Wagner, Hon. Ann, a Representative from Missouri.................    32

                                APPENDIX

Prepared Statements:

    Barr, Hon. Andy..............................................    43
    Blackburn, Hon. Marsha.......................................    45
    Broun, Hon. Paul C...........................................    49
    Bustos, Hon. Cheri, a Representative from Illinois...........    51
    Chabot, Hon. Steve, a Representative from Ohio...............    54
    Chu, Hon. Judy...............................................    56
    Collins, Hon. Chris, a Representative from New York..........    59
    Collins, Hon. Doug...........................................    60
    Crawford, Hon. Eric A. ``Rick''..............................    65
    Cuellar, Hon. Henry, a Representative from Texas.............    70
    DeSantis, Hon. Ron...........................................    72
    Ellmers, Hon. Renee L........................................    75
    Fincher, Hon. Stephen Lee, a Representative from Tennessee...    78
    Gardner, Hon. Cory, a Representative from Colorado...........    79
    Gosar, Hon. Paul A., a Representative from Arizona...........    80
    Graves, Hon. Sam.............................................    82
    Hanna, Hon. Richard L........................................    86
    Heck, Hon. Denny.............................................    88
    Hudson, Hon. Richard.........................................    90
    Johnson, Hon. Sam, a Representative from Texas...............    94
    Lowenthal, Hon. Alan S.......................................    98
    Lummis, Hon. Cynthia M., a Representative from Wyoming.......   100
    McMorris Rodgers, Hon. Cathy, a Representative from 
      Washington.................................................   105
    Meng, Hon. Grace.............................................   107
    Nunes, Hon. Devin............................................   110
    O'Rourke, Hon. Beto..........................................   112
    Pascrell, Hon. Bill, Jr., a Representative from New Jersey...   117
    Perry, Hon. Scott............................................   119
    Pierluisi, Hon. Pedro R......................................   121
    Posey, Hon. Bill.............................................   125
    Rahall, Hon. Nick J., II, a Representative from West Virginia   127
    Ribble, Hon. Reid J..........................................   129
    Roby, Hon. Martha, a Representative from Alabama.............   133
    Roskam, Hon. Peter J., a Representative from Illinois........   135
    Ross, Hon. Dennis A., a Representative from Florida..........   137
    Rothfus, Hon. Keith, a Representative from Pennsylvania......   139
    Sablan, Hon. Gregorio Kilili Camacho, Delegate from Northern 
      Mariana Islands............................................   148
    Thompson, Hon. Glenn ``GT,'' a Representative from 
      Pennsylvania...............................................   151
    Tonko, Hon. Paul.............................................   153
    Wagner, Hon. Ann.............................................   155
    Williams, Hon. Roger, a Representative from Texas............   157
    Young, Hon. Todd C., a Representative from Indiana...........   159

Documents Submitted for the Record:

    GAO report, ``Defense Headquarters: DOD Needs to Reassess 
      Options for Permanent Location of U.S. Africa Command''....   165

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
NATIONAL DEFENSE PRIORITIES FROM MEMBERS FOR THE FISCAL YEAR 2015 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, April 9, 2014.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Mac Thornberry 
presiding.

STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM TEXAS, 
                  COMMITTEE ON ARMED SERVICES

    Mr. Thornberry. Committee will come to order. Good morning. 
The House Armed Services Committee meets today to receive 
testimony from Members of Congress on their national defense 
priorities for the fiscal year 2015 National Defense 
Authorization Act [NDAA]. Chairman McKeon has been called to 
handle other committee responsibilities this morning and will 
hopefully be joining us once we are underway. Without 
objection, we will enter his prepared opening statement at this 
point in the record.
    [There was no prepared statement submitted by Mr. McKeon.]
    Mr. Thornberry. One quick note for our format today. In 
consultation with the ranking member, we will depart from our 
regular questioning process. Each witness will have 4 minutes 
to testify. Members of the committee may seek recognition by 
raising their hand or notifying the staff and will be granted 2 
minutes each up to the 4-minute limit. This will ensure we can 
hear from all our witnesses in a timely fashion.
    As this hearing is intended to be a listening session, it 
is not our intent to engage in extended debate or colloquy with 
our witnesses. But we do appreciate all our colleagues coming 
today and hearing their priorities.
    With that, I will yield to the distinguished ranking 
member.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I don't have any 
opening comments except to say that I look forward to the 
comments from the Members from outside of the committee. We 
strive on this committee to represent the entire Congress, 
obviously, so we want to hear what you are interested in. And 
as we get ready to produce the national defense authorizing 
act, those opinions and issues that you raise will be very 
important as we consider what the final product should look 
like and debate amendments and the bill on, I believe it is May 
7. So timely hearing. Look forward to the testimony.
    Mr. Thornberry. I thank the gentleman.
    And with that, we will start, appropriately, from the great 
State of Texas. Gentleman from Texas, Mr. O'Rourke, is 
recognized for 4 minutes.

  STATEMENT OF HON. BETO O'ROURKE, A REPRESENTATIVE FROM TEXAS

    Mr. O'Rourke. Mr. Chair, Ranking Member Smith, members of 
the committee, thank you for the opportunity to testify before 
you today. I have the distinct honor of representing El Paso, 
Texas, which is home to Fort Bliss and the Army's 1st Armored 
Division; 29,000 soldiers and their families call Fort Bliss 
and El Paso home.
    Fort Bliss also has a unique relationship with White Sands 
Missile Range and Holloman Air Force Base, making the region 
one of the most important for our military. The three 
installations encompass more than 3.3 million acres and nearly 
10,000 square miles of air space. Together they provide an 
unrivalled strategic advantage to our military for its training 
and testing and evaluation needs, an advantage that cannot be 
replicated elsewhere.
    Today, I will testify on four issues that are important to 
our region and important to our country's security. The first 
is on the issue of the budget, and in these uncertain times I 
believe that Fort Bliss offers the Army opportunities to adapt, 
innovate, and achieve its near-term readiness priorities.
    Fort Bliss, in partnership with the community, has built 
the largest inland water desalination facility in North 
America. Building on that commitment to sustainability, the 
installation has committed itself to achieve net-zero waste, 
water, and energy by December 31, 2018. These innovations will 
not only save the Army money, they will also make the post 
fully sustainable long into the future.
    Fort Bliss is capable of training virtually any type of 
unit in the Army force structure. Along with the restationing 
of the 1st Armored Division in 2005, the post also seamlessly 
received several brigade combat teams and numerous supporting 
units. This committee can be confident that Fort Bliss, along 
with White Sands Missile Range and Holloman Air Force Base, 
will continue to play a critical role in our country's national 
defense for decades to come no matter what the budget 
situation.
    The second issue is Fillmore Canyon and a requested land 
transfer. The Department of the Army has identified the 
Fillmore Canyon land transfer as a high priority for the NDAA. 
The proposal will ensure that Fort Bliss and White Sands are 
protected from encroachment and have the buffer necessary to 
continue their training missions in the area. This proposal 
would transfer the Fillmore Canyon to the jurisdiction of the 
Bureau of Land Management [BLM] and withdraw BLM land on the 
south and west boundaries of the Fort Bliss Dona Ana training 
areas and firing range complex from disposal to a third party, 
such as a private development company. I urge the support of 
this committee for the inclusion of this land transfer 
authority in the NDAA.
    Next issue is Beaumont Hospital. Thanks to the past work of 
this committee, the new William Beaumont Army Medical Center is 
under construction and on schedule to start serving service 
members in 2017 as a new state-of-the-art facility. The 
hospital has three remaining phases of construction, and the 
timely completion of the new hospital is dependent on the 
funding of future increments through fiscal year 2016. I ask 
this committee to continue your strong support for this project 
and the remaining funding increments.
    Last issue is the issue of transitioning service members. 
As a member of the Veterans' Affairs Committee, I understand 
the numerous issues transitioning service members face. Of 
critical importance is ensuring that they have access to health 
care through the VA [Veterans Administration]. I hope that this 
committee will consider the Healthy Transitions for Veterans 
Act, H.R. 3045, which I introduced last year. The proposal 
would require the Department of Defense to perform two simple, 
commonsense tasks.
    The first, provide a comprehensive physical examination to 
all service members of the Active, Guard, and Reserve 
components who are separating from military service; and 
secondly, provide separating service members with a copy of 
their complete medical records electronically. These changes 
will improve the transition for our soldiers, and it has been 
endorsed by over 14 veterans service organizations and is 
cosponsored by 6 members of the committee, 4 of them Republican 
and 2 Democrat. I look forward to working with you on this 
proposal.
    Thank you again for the opportunity to testify today. And 
in his absence, I would also like to thank Chairman McKeon for 
his decades of service both in Congress and on the committee. 
And should you have any questions, I am here to answer them. 
Thank you.
    [The prepared statement of Mr. O'Rourke can be found in the 
Appendix on page 112.]
    Mr. Thornberry. Thank the gentleman for his testimony.
    Are there any questions?
    If not, thank you, sir. Appreciate you being here.
    Let's see, next we have the gentlelady from North Carolina, 
Ms. Ellmers. And I should have said at the beginning, without 
objection, all of the written statements that our witnesses 
provide will be made part of our record.
    Ms. Ellmers, thanks for being here. You are recognized for 
4 minutes.

STATEMENT OF HON. RENEE L. ELLMERS, A REPRESENTATIVE FROM NORTH 
                            CAROLINA

    Mrs. Ellmers. Thank you, Mr. Chairman and Ranking Member 
Smith, for allowing me to testify today in the House Armed 
Services Committee. I truly appreciate this opportunity. Since 
I have numerous issues I wish to draw attention to, I will keep 
my remarks brief on each issue. My staff will be happy to 
follow up on any of these issues and provide necessary 
information.
    I am a proud Representative of the Second District North 
Carolina, which is home to Fort Bragg. I am very honored to be 
representing Fort Bragg. Fort Bragg is home to the Airborne and 
Special Operation Forces.
    The first issue I would like to address is the President's 
proposal to inactivate the 440th Airlift Wing located at Pope 
Field. I have serious concerns with this proposal and the 
negative impacts it would have on training. The 440th Airlift 
Wing provides 33 percent of crucial joint airborne and air 
transportability training to the forces stationed at Fort 
Bragg.
    This joint commission was formed over the last 7 years to 
provide Airborne and Special Operation Forces with the 
accessible, flexible, and quality training they need to 
continue to be ready for whatever mission they are asked to 
carry out. Eliminating the ability to rapidly mobilize to train 
and deploy with local commanders, aircrews and aircraft that 
have an established relationship with our most in-demand forces 
increases risk at an unacceptable rate.
    Mr. Chairman, I respectfully request you maintain the 
mission of the 440th Airlift Wing and its C-130s.
    My next issue that I would like to speak about has to do 
with TRICARE. I would like to discuss the issue and the lack of 
timely and consistent notification from TRICARE regarding 
changes made to beneficiaries' insurance coverage. While 
sitting down with one of my military spouses, Susan Reynolds, I 
was stunned to learn that her family was not notified about 
TRICARE's decision to end coverage for compounded 
pharmaceuticals. Her son Ian is allergic to red dye and relies 
on compounded pharmaceuticals for his medications.
    Mrs. Reynolds' husband Jeremy was deployed in less than a 
month and was blindsided by the changes made to his family's 
TRICARE coverage. The Reynolds family was left with the 
struggles of deployment and unnecessary burdens of wondering if 
their son's medication would be covered and how they would be 
able to replace it. This was an unnecessary hardship placed on 
the backs of the deployed family simply because there is no 
standard notification system in place to changes of TRICARE 
coverage.
    After speaking with numerous military families like the 
Reynolds, I introduced H.R. 4101, the TIME [Timely Information 
Management Enforcement] Act. This legislation would reconstruct 
TRICARE's notification process and require TRICARE to notify 
beneficiaries and providers no less than 90 days before a 
change to their coverage is made. It is imperative that 
military families have the appropriate time they need to find 
suitable alternatives for the coverage lost. Instead, they were 
left to see their insurance coverage pulled out from underneath 
them.
    Mr. Chairman, I request that this problem be addressed in 
this year's NDAA and that the TIME Act be a part of that 
discussion. I would like to work with the House Armed Services 
Committee to fix this problem.
    In closing, I believe it is more important than ever that 
the United States maintain its military superiority and 
continue to be the dominant force of freedom in the world.
    Thank you, Mr. Chairman, for this opportunity, and Ranking 
Member Smith, for allowing me to speak before this 
distinguished committee and for all of your hard work and 
support of our armed services and military families. I look 
forward to working with the committee on the challenges facing 
our military. Thank you.
    [The prepared statement of Mrs. Ellmers can be found in the 
Appendix on page 75.]
    Mr. Thornberry. Thank you. Appreciate the testimony of the 
gentlelady.
    Are there any questions? None.
    Thank you. Appreciate you being here.
    Mrs. Ellmers. Thank you.
    Mr. Thornberry. Next, the gentleman from Georgia, Mr. 
Collins. Appreciate the gentleman being here. You are 
recognized for 4 minutes.

 STATEMENT OF HON. DOUG COLLINS, A REPRESENTATIVE FROM GEORGIA

    Mr. Collins of Georgia. It is good to be here. And as a 
member of the still active Air Force Reserve, this committee is 
special to me, and I appreciate all the work that you, Mr. 
Thornberry and Ranking Member Smith, would give.
    I appreciate the opportunity to testify this morning before 
your committee. Words cannot express how proud I am of having 
in my district one-third of the famed U.S. Army Ranger School. 
The 5th Ranger Training Battalion is located in the beautiful 
mountains of Dahlonega, Georgia, home also to America's first 
gold rush, but I am not here the discuss that.
    Camp Frank D. Merrill, located on 282 acres of land, houses 
the Mountain Phase of Ranger School. The camp is comprised of 
200 Active Duty soldiers, a dining facility, PX [Post 
Exchange], commissary, chapel, and mountaineering equipment. 
Most importantly, Camp Merrill houses over 200 soon-to-be 
Rangers who are deprived of food, sleep, and comforting 
amenities in order to best serve our country and offer 
themselves as a fighting force.
    After World War II, the U.S. Army leased the 282-acre tract 
of land from the U.S. Forest Service [USFS] in order to 
construct the second phase of Ranger School. In 1951, Army-USFS 
Special Use Permit was drafted and the Army has operated on the 
land under the supervision of the Forest Service since then.
    The Special Use Permit has enacted two layers of business 
rules and operating procedures for Camp Merrill, one Army layer 
and one Forest Service layer. The duplicative nature of 
management causes delays on critical infrastructure projects 
and unnecessarily complicates day-to-day operations.
    Ranger School's operational tempo and mission at Camp 
Merrill is an understandably unique one. The Army's mission at 
Camp Merrill requires very specific building and maintenance 
standards calling for exemptions to regulatory guidance, 
guidance for which the Army already has standing operating 
procedures in place for.
    Once approvals for exemptions are processed through the 
military channels, the Forest Service then vets any changes to 
Camp Merrill's structure. This has happened at increased cost 
to U.S. taxpayers. The goal in acquiring Camp Merrill for the 
Army is to increase efficiency and to save taxpayer money. 
Wholly owning Camp Merrill allows any needed structural 
improvements and Ranger training facilities upgrades to occur 
cheaper than operating under two levels of bureaucracy.
    One example of bureaucratic senselessness is when a group 
of trees surrounding a landing zone for helicopters started to 
cause a safety hazard and needed trimming. Due to the two-level 
approval process of structural and environmental changes 
required by dual management of Camp Merrill, 2 years went by 
before approval was granted to trim the trees within an acre-
and-a-half area. In addition to the protracted time to 
accomplish this simple task, the cost for trimming the trees 
was nearly doubled.
    While we are on cost, the bureaucratic redundancy is 
occurring at a period when DOD [Department of Defense] is 
looking to capitalize on savings. The last nine projects the 
Army built at Camp Merrill cost $674,980 more--catch that, 
more--due to repeated and unnecessary oversight by the United 
States Forest Service. While this may appear a minuscule amount 
of money, remember a redundant approval process can be traced 
back for over 50 years.
    My legislation reverses decades of redundant oversight and 
enacts a land exchange between the Department of Army and the 
Forest Service. This exchange will allow the Army to gain 
administrative control of Camp Merrill and Forest Service gets 
new lake property on Lake Lanier.
    For over 20 years, two agencies engaged in several rounds 
of negotiation to enact the land transfer, and as recent as 
2012, language was inserted into NDAA to bring the long-needed 
change. At the last moment the language was stripped out 
because the Department of Agriculture reneged on the deal by 
asking for $10 million in addition to the land on Lake Lanier. 
The Army was not able to provide the money, and shouldn't have, 
by the way, as it was not part of the originally mutually 
decided upon agreement.
    2014 is the year the saga should come to an end. With the 
passage of this language, the Army is empowered to build the 
structures needed to train one of the Army's most elite 
fighting forces. In addition, taxpayer moneys are relieved of 
duplicative agency oversight and the Forest Service gains land 
it previously didn't own.
    It is time, Mr. Chairman, for this to end, and it is time 
for two government agencies to settle a 20-plus-year-old 
dispute and save money at the same time.
    And Mr. Chairman, I yield back, and thank you so much.
    [The prepared statement of Mr. Collins of Georgia can be 
found in the Appendix on page 60.]
    Mr. Thornberry. Thank you. Appreciate your testimony.
    Are there any questions?
    Thank you, Mr. Collins. Appreciate you being here.
    Next, the gentleman from Florida, Mr. Posey.
    Thanks for being here. You are recognized for 4 minutes.

  STATEMENT OF HON. BILL POSEY, A REPRESENTATIVE FROM FLORIDA

    Mr. Posey. Thank you, Mr. Chairman and Mr. Ranking Member 
and committee members. I appreciate the opportunity to testify 
before you this morning. I appreciate the work you do in 
crafting the National Defense Authorization Act. In addition to 
this testimony, I will also submit a letter outlining 
priorities I believe are worthy of your consideration, and hope 
you will allow me just to highlight a few of them for you here 
this morning.
    First, I would like to thank the committee for recognizing 
the national importance of having a safe, secure, reliable, and 
modern space launch range infrastructure to support the 
national security space mission in the fiscal year 2014 NDAA. 
Last year, I testified on the importance of urging the Air 
Force to take steps to ensure that the Range Communications 
Building--also known as the XY Building--at Cape Canaveral Air 
Force Station is in sufficient shape to support our Nation's 
space launches.
    The deplorable condition of this building, with its 
structural problems, flooding issues, outdated vacuum tube 
technology, believe it or not, must be addressed. I understand 
the Air Force rates this as their number one current mission 
MILCON [military construction] priority for 2013 to 2016. 
Please continue, I hope, to urge the Air Force to prioritize 
resources as appropriate to modernize this vital launch 
infrastructure.
    Second, I would ask the committee to include in the NDAA a 
commonsense provision that passed the House last year on a 
voice vote as part of an en bloc amendment relating to Space 
Available military transport. Unfortunately, this provision did 
not make it through the Senate or the conference process. It 
simply allows nonprofit organizations to ship items to U.S. 
service members serving overseas on a space available basis. A 
similar policy is in place for sending cargo to foreigners 
under the Denton Program. This provision, previously adopted by 
the House, gives the Secretary of Defense the authority to do 
this for our own troops.
    Next, I understand that there may be requests to the 
committee that would require the Army to execute the fiscal 
year 2014 appropriated funds for an additional noncompetitive 
procurement for the Army's Joint Tactical Radio Handheld, 
Manpack, and Small Form Fit Program, JTRS. Without getting too 
technical, I would the urge the committee to instead continue 
the successful approach of last year and years before and 
promote competition in the procurement process. Competition 
saves money, and in this case it also drives competition. Sole 
source does neither.
    In closing, I would ask the committee to support the Army's 
network modernization with the Small Airborne Networking Radio 
program; the continuation of a successful J-STARS [Joint 
Surveillance Target Attack Radar System] fleet with the T-3 
test aircraft; and the proper utilization of the Kiowa Warrior 
in its last year of availability for the warfighter. It 
includes upgrades to ensure that if called into action our 
troops would have the best equipment possible.
    I appreciate very much your consideration of these 
requests.
    [The prepared statement of Mr. Posey can be found in the 
Appendix on page 125.]
    Mr. Thornberry. Thank the gentleman for testimony.
    The gentleman from Florida, Mr. Nugent, is recognized for 2 
minutes.
    Mr. Nugent. Thank you Mr. Chairman.
    And thank you, Mr. Posey. You bring up some very important 
issues, particularly to the State of Florida on your first as 
it relates to the space launch ability at our facility there. I 
mean, we have two decades worth of experience in space launch. 
And I just want to thank you for bringing this forward. But 
beyond a Range Communication Building, what other programs need 
new authorization to preserve and improve our space launch in 
Florida, particularly since we are so dependent today on 
Russia, which has not turned out to be all that dependable?
    Mr. Posey. Well, I thank the gentleman for that question. 
You know, all space launches are matters of national security, 
not just perceived in the traditional manner that we look at 
national security, but as economic national security. I mean, 
take a few satellites out and you no longer get your weather 
report, you no longer can use your GPS, you no longer can use 
the cell phone, you not longer can use a credit card, you no 
longer can process a check. I mean, these are significant 
economic dangers to our economy and to our society.
    There is a lot of discussion in the Space, Science, and 
Technology Committee how to best spend the money on space. But 
in this particular issue, the XY Building, literally, I would 
invite any of you sometime to visit it. The technology that we 
are using for tracking, and ultimately our systems hinge on it, 
are truly vacuum tube technology. I mean, if you saw it you 
would not believe that we are operating the Kennedy Space 
Center and the Cape Canaveral Air Force Station with this 
outdated technology or the condition of the building. It is 
truly frightening to me as a matter of national security.
    Mr. Nugent. I thank the gentleman from Florida for bringing 
that forward.
    I yield back.
    Mr. Posey. Thank you, sir.
    Mr. Thornberry. Other questions?
    Thank the gentleman for being here. Appreciate it.
    Next we have the gentleman from Puerto Rico.
    Appreciate you being here. Recognized for 4 minutes.

  STATEMENT OF HON. PEDRO R. PIERLUISI, RESIDENT COMMISSIONER 
                        FROM PUERTO RICO

    Mr. Pierluisi. Thank you, Mr. Chairman, Ranking Member, 
members of the committee. Thank you for the opportunity to 
testify. I have two requests which I will summarize.
    First, congressional action is needed to address a 
significant threat to public safety on the island of Culebra, 
Puerto Rico, which was used as a military training range for 
many decades. DOD argues that a 1974 law precludes it from 
funding the cleanup of a 570-acre parcel, much of which was 
conveyed to the Government of Puerto Rico back in 1982. Culebra 
is the only defense site in the Nation that DOD says it is 
barred by statute from decontaminating.
    In the last several years, DOD and some Members of Congress 
have opposed bicameral efforts to repeal or relax the 1974 law. 
This opposition flies in the face of well-established Federal 
policy that DOD is responsible for funding remedial action on 
property contaminated by its training activities. It is also 
difficult to understand since CBO [Congressional Budget Office] 
confirms that effective cleanup could be conducted for $6 
million.
    The current state of affairs on Culebra is a disaster 
waiting to happen because the parcel contains popular beaches, 
pedestrian walkways, and campgrounds. Since 1995, there have 
been over 70 incidents in which members of the public 
encountered unexploded munitions that could have caused grave 
harm. Indeed, in January local authorities had to close a beach 
when they discovered a 100-pound unexploded bomb underwater 
close to shore.
    Last week the Corps of Engineers issued a press release 
warning spring break travelers to Culebra to exercise caution 
during their stay and to be on the lookout for any items that 
could be potential munitions, noting that the likelihood of 
encountering munitions on Culebra is relatively high.
    This committee has been actively engaged on the issue of 
the past. The House version of the 2010 NDAA repealed the 1974 
law to authorize cleanup of the parcel. But the House receded 
in conference.
    The 2011 NDAA required a comprehensive DOD study on this 
issue which DOD completed in April 2012. In the 2012 NDAA, I 
offered a successful floor amendment expressing the sense of 
the House that the 1974 law should be relaxed or repealed if 
the parcel could be cleaned at a reasonable cost, which it 
absolutely can. But again, the final bill was silent on the 
issue.
    I respectfully ask the committee to again include language 
to modify the 1974 law and to defend this provision in 
conference. I would like to work with Chairman McKeon, Ranking 
Member Smith, and Chairman Wittman to accomplish this goal. I 
have been trying to resolve this matter for 5 years. I cannot 
rest until it is properly addressed because the stakes are too 
high.
    My second request relates to the budget line for 
counterdrug activities. No U.S. jurisdiction is more affected 
by the drug trade than Puerto Rico, which is a major 
transshipment point for drugs destined for the U.S. mainland. 
The murder rate in Puerto Rico is far worse than any State and 
most of the violence is linked to narcotics.
    The defense title of the 2014 Consolidated Appropriations 
Act expresses concern about drug-related violence in Puerto 
Rico and requires DOD to brief Congress on the steps it is 
taking to support law enforcement operations in the U.S. 
territory. I am concerned that DOD has requested only $719 
million for interdiction activities in 2015 compared to the 
current funding level of $895 million. DOD must request and 
receive more robust funding in order to adequately perform this 
vital mission.
    Accordingly, I hope the committee will provide increased 
funding so that SOUTHCOM [Southern Command] has more of the 
maritime and aviation assets it needs to prevent major 
shipments of narcotics from entering the U.S. and destroying 
the lives of American citizens. Thank you.
    [The prepared statement of Mr. Pierluisi can be found in 
the Appendix on page 121.]
    Mr. Thornberry. I thank the gentleman.
    Are there any questions?
    If not, appreciate your testimony. Thanks for being here.
    Mr. Pierluisi. You are welcome.
    Mr. Thornberry. Next we have the gentleman from Florida, 
Mr. DeSantis.
    Appreciate you being here. You are recognized for 4 
minutes.

 STATEMENT OF HON. RON DESANTIS, A REPRESENTATIVE FROM FLORIDA

    Mr. DeSantis. Thank you, Chairman, Ranking Member Smith, 
and members of the committee. I appreciate your time. I know it 
is a busy time for the committee.
    I am here to talk about the E-2D Advanced Hawkeye, the 
Navy's carrier-based Airborne Early Warning and Battle 
Management Command and Control system. This particular E-2 
platform has been serving our military well since the 1960s, 
and as you consider the fiscal year 2015 authorization for DOD, 
I ask that you support the E-2D program, as well as an 
additional fifth E-2D Advanced Hawkeye aircraft.
    The E-2D is equipped with new cutting-edge communications 
capabilities and radar systems. These advancements enable the 
E-2D to synthesize information from multiple onboard and off-
board sensors to provide increased missile protection to our 
carrier defense groups, while also improving the aircraft's 
offensive capabilities, which are key to supporting our 
combatant commands.
    The addition of the fifth E-2D aircraft in fiscal year 2015 
is necessary for providing carrier strike groups with the E-
2D's advanced Integrated Air and Missile Defense capabilities 
to pace the rapidly evolving Pacific threat. Without this fifth 
aircraft, a carrier will be forced to deploy with less advanced 
E-2Cs, preventing carriers from having the additional 
capability that E-2Ds bring against multiple threats. 
Furthermore, additional funding would be needed to keep 
multiple variants of the Hawkeye in service longer.
    The program is critical for the Navy and our military. One 
of the members of this committee and our colleague, Congressman 
Bridenstine, put it well: ``Given the threat to the strike 
groups, multiyear procurement of E-2D is absolutely necessary. 
The only question is, are we purchasing enough E-2Ds and 
missile intercepters to counter the high volumes of incoming 
missiles that our sailors and soldiers could face?'' And Jim is 
a former E-2C pilot, so he really sees the advancements in 
capability with the E-2D.
    It has met every major milestone on schedule since the 
program's inception in 2003. And as the program moves forward, 
full funding for the E-2D, as well as funding for a fifth 
aircraft, ensures that carrier air wings will fully realize the 
capabilities provided by the state-of-the-art early warning and 
battle management command and control weapon system.
    The role technology plays in modern warfare is very 
important, and the technological advances of the E-2D will 
ensure that our military maintains its critical edge. Your 
support for this program is essential to maintaining the safety 
of our carriers in a changing environment when we are facing 
new threats.
    Thank you for having me here today, and thank you for what 
you do to support our Nation's warfighters.
    [The prepared statement of Mr. DeSantis can be found in the 
Appendix on page 72.]
    Mr. Thornberry. Gentleman from Florida, Mr. Nugent, is 
recognized for 2 minutes.
    Mr. Nugent. Thank you, Mr. Chairman.
    And thank you, Mr. DeSantis. I mean, it is disappointing 
that the President's budget eliminated one of these aircraft. 
Can you explain to us, or at least to me, why is it so 
important? I mean, why is it so important, the difference 
between a C and a D? I mean, it is a letter. So if you could.
    Mr. DeSantis. Sure. Well, the E-2 generally has been the 
eyes of the fleet. One of the greatest capabilities we have 
just as a Navy, one of the things I was most proud of was to be 
able to take an aircraft carrier, sovereign U.S. territory, and 
put it anywhere on the seas and project power from there. But 
you can't just do that without knowing what the threats that 
you are facing, and so the E-2 has historically proven to be 
that platform that can identify the threats.
    I think what the E-2D brings is the capability is just so 
much greater. So we would need to increase capability anyways 
because the threats are stealthier than they have been in the 
past. But I think what the E-2 does is it obviously keeps up 
with that, and then it puts us even at a greater competitive 
advantage considering some of the threats that we are facing. 
So it really does bring great capabilities to the fight.
    Mr. Nugent. Well, and particularly you talked about in the 
Pacific theater, there was just a comment, I believe it was in 
the paper today from China basically challenging us as it 
relates to our ability to operate within the Pacific theater 
and their growing capacity and capability. So I would think the 
E-2D certainly gives at least our forces, and particularly 
those that are attached to a carrier group, a whole lot more 
protection and the ability, if faced with a fight, to prevail. 
And so I appreciate you bringing this forward. Thank you.
    Mr. DeSantis. Thank you.
    Mr. Thornberry. Other questions?
    Thank the gentleman for your testimony. Appreciate you 
being here.
    Just to alert members, a couple of things are happening. 
Number one, we are moving along efficiently. Number two, some 
of the witnesses have been detained in other committee 
hearings, and so I think we will be resuming here in just a 
moment.
    Appreciate the gentleman from New York being with us. We 
have already gotten unanimous consent for any written statement 
and materials to be made part of the record, and we are asking 
witnesses to summarize their testimony in 4 minutes. With that, 
the gentleman is recognized. If you don't mind hitting the 
button for the microphone.

  STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE FROM NEW YORK

    Mr. Tonko. I am sorry. I am sorry.
    Thank you for the invitation to testify before the 
committee today. I come before you first to advocate for the 
thousands of veterans who served at Fort McClellan, Alabama, 
and are seeking to know whether their service time there made 
them ill.
    Shortly after I was first elected to Congress in 2008, I 
met with a constituent named Sue Frasier, who had served at 
Fort McClellan in the 1970s as part of the Women's Army Corps. 
Sue described for me the numerous health problems she had 
experienced since her time at Fort McClellan, including 
fibromyalgia, autoimmune disorders, and asthma. Most 
significantly, Sue had to undergo a hysterectomy at age 37.
    Sue's story is not an isolated one. As my office began to 
investigate this issue further, we have heard from hundreds of 
vets from all over the country who served at Fort McClellan 
that are experiencing similar health issues consistent with PCB 
[polychlorinated biphenyl] exposure.
    I have introduced legislation that would notify those who 
served at Fort McClellan of potential contamination and create 
a voluntary health study to assess the validity of their 
claims. This issue has gained the support of 52 cosponsors, 
including members of both parties on this committee. I want to 
personally thank those of you on this committee, on both sides 
of the aisle, that have lent your support to this pro-veteran 
legislation.
    Our mission here is simple: Obtaining basic information. 
Unfortunately, after 5 long years and support from many members 
of this committee, we are still stalled. We have yet to have a 
hearing or a vote on this important issue. And this inaction 
has a price: While we wait, these veterans become sicker.
    This is an issue that deserves debate in an open forum. I 
do not pretend to have all the answers, and I am happy to work 
with anyone from either party to find a solution to this issue. 
However, what we cannot do is continue to turn a blind eye to 
those veterans who are simply seeking to understand why they 
are so sick. Caring for our veterans is a top priority and this 
is a debate worth having.
    I urge this committee to consider language in the NDAA to 
address the needs of the Fort McClellan veterans. I also hope 
you will include language based on my bill in H.R. 337 which 
bears the name of Lieutenant Colonel Todd Clark, an Albany, New 
York, native who was tragically killed in action on June 8, 
2013.
    Todd wished to be buried at Fort Sam Houston in Texas; 
however, his family also wanted to have a hometown service to 
allow friends and family the opportunity to honor him. They 
were shocked to learn that they would be responsible for 
defraying part of the cost of transporting their son's body 
from Albany to San Antonio. Currently, it is the Department's 
policy to only provide one flight at government expense for 
deceased service members.
    In this case, DOD paid for transport from Dover Air Force 
Base to Albany, but was unable to cover the cost to San 
Antonio. I have suggested allowing for one stopover en route to 
final destination. This would enable service members who wish 
to be buried in a national cemetery to have a hometown memorial 
service without worrying about the cost of transportation. This 
stopover would be completely optional.
    I understand that DOD cannot be asked to fulfill burdensome 
requests, such as many flights crisscrossing our Nation. One 
stopover represents a reasonable compromise that insulates the 
Department from extravagant costs while allowing families 
greater flexibility to fulfill their loved one's last wishes.
    Some will argue that families should use the $100,000 death 
gratuity to cover this expense. But I believe, for a family 
that has just lost a loved one on behalf of our Nation, that 
money is better spent on mortgage payments, college funds, and 
rebuilding their lives. The cost of funeral arrangements is the 
last thing they should be worrying about.
    Truthfully, I do not know how many people have paid this 
expense or changed their arrangements to avoid extra cost, but 
I do know that the Clarks are not alone. When a service member 
and his or her family make the ultimate sacrifice, the least we 
can do is make sure family and friends have ample opportunity 
to honor and memorialize their loved one. How we treat our 
fallen heroes and those who grieve for them says a lot about us 
as a Nation and the debt we owe our veterans. All I am asking 
is that we do a little bit more.
    Thank you again to the chair and the committee for hearing 
my testimony today. I would be happy to answer any questions or 
follow up with additional information you may require. Thank 
you.
    [The prepared statement of Mr. Tonko can be found in the 
Appendix on page 153.]
    Mr. Thornberry. Thank the gentleman.
    Are there any questions? If not, appreciate the gentleman 
being here and raising these issues.
    Mr. Tonko. Thank you, Chair.
    Mr. Thornberry. We are ready to resume. Appreciate the 
gentleman from Missouri, chairman of the Small Business 
Committee being with us, Mr. Graves. And you are recognized for 
4 minutes.

  STATEMENT OF HON. SAM GRAVES, A REPRESENTATIVE FROM MISSOURI

    Mr. Graves of Missouri. Thank you, Mr. Chairman. I 
appreciate it, and I appreciate the work that the committee is 
doing.
    Given that the Federal Government spends nearly half a 
trillion dollars each year on contracts, the Federal 
procurement market is incredibly important for all of the small 
businesses. Improving small business opportunities for Federal 
contracts is a triple play: The small businesses win more 
contracts; workers win because small businesses create jobs; 
and the taxpayers win because the competition saves the 
government money and it improves the health of the industrial 
base.
    Over the last 3 years, the Armed Services Committee and the 
Small Business Committee have worked together on procurement 
issues, and I am pleased to report this collaboration is 
working very well. For the first time in 8 years it appears 
that the Federal Government met its small business goal. 
However there is still a great deal of work to be done to 
ensure that the contracting community has the tools and 
guidance it needs to get the best results and that small 
businesses don't face unnecessary burdens and barriers to the 
entry in the procurement process with the Federal Government.
    And to that end, the Small Business Committee recently 
marked up five bills aimed at further improving the competitive 
viability of our industrial base, and I introduced a sixth bill 
that has not been marked up yet. I believe these initiatives, 
all of which have bipartisan support, tie into the 
recommendation presented to this committee in 2012 by the Panel 
on Business Challenges in the Defense Industry, which is led by 
Mr. Shuster and Mr. Larsen.
    The small business bills should complement the efforts of 
the Armed Services Committee in this Congress. Therefore, I am 
here today to support the inclusion of these six bills in this 
year's National Defense Authorization Act, and I detail each of 
the initiatives in my written statement, but I will just 
briefly mention them here.
    The first three bills seek to make general improvements to 
the small business programs. The first addresses the treatment 
of veterans and service-disabled veterans seeking to do 
business with the government by improving the verification 
process with these firms. The second bill tackles the lack of 
reliable data on the contract bundling and consolidation 
process, which are practices that unnecessarily preclude small 
businesses from competing for contracts. And the third bill is 
a provision embraced by this committee in the fiscal year 2013 
defense authorization which raises the government-wide small 
business contracting goal from 23 percent to 25 percent. As 
spending levels decrease, this is going to protect small 
businesses at the heart of the industrial base.
    The remaining three bills focus on challenges for small 
business in the construction industry. The first makes it 
easier for small businesses to obtain the necessary bonding to 
compete. It does so at no cost to the taxpayer. The second 
takes the lessons learned from the policy enacted by the Corps 
of Engineers on reverse auctions and expands them government-
wide to protect small businesses and the taxpayers alike. And 
the third improves the way we conduct design-build contracting 
to decrease the cost to government while it increases small 
business opportunities. This last bill is pending before the 
Committee on Oversight and Government Reform, which I 
understand that that committee of jurisdiction has to be 
consulted.
    The first five bills received bipartisan support in the 
committee, passed by voice vote, and are supported by numerous 
small business groups, and final bill has support from 
agencies, industry, and the bipartisan group of members. Each 
bill supports the intentions if not specific recommendations of 
the panel report produced by this committee last Congress, and 
most importantly, each bill provides more opportunity to small 
businesses to create jobs at a price that is in the best 
interest of the taxpayers.
    I am pleased that our two committees are working very well 
together and very cooperatively, and I hope this language can 
be incorporated into this year's defense authorization. With 
that, I thank you for your time.
    [The prepared statement of Mr. Graves of Missouri can be 
found in the Appendix on page 82.]
    Mr. Thornberry. Any questions?
    Gentleman from Colorado recognized for 2 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    I would like to thank Chairman Graves for appearing before 
the committee today. I would also like to offer my thanks for 
your support for the inclusion of House Resolution 2882, the 
Improving Opportunities for Service-Disabled Veteran-Owned 
Small Businesses Act.
    In the 2014 National Defense Authorization Act, the Small 
Business Administration and the Department of Veterans Affairs 
both verify the status of service-disabled veteran-owned small 
businesses. As a member of the House Small Business Committee 
and the House Veterans' Affairs Committee, I have heard 
numerous stories from veterans about problems with the current 
procurement programs for service-disabled veteran small 
businesses.
    Under the current system, a company can qualify at one 
agency and not another for procurement preferences. The 
inconsistency often adds cost, confusion, and opens the door to 
fraud. Moreover, the current process requires the VA to make 
decisions that are outside their expertise, such as determining 
business structures.
    My legislation will transfer the VA verification process 
for firms to the SBA [Small Business Administration], unify the 
definitions of service-disabled small businesses and veteran-
owned small businesses, and add transparency.
    I want to again thank Chairman Graves for coming to this 
committee today. I urge the committee to accept Chairman 
Graves' request for the inclusion of these small business 
measures in the National Defense Authorization Act, including 
my legislation H.R. 2882. And with that, I yield back.
    Mr. Thornberry. Other questions?
    Appreciate the gentleman being here. Thank you.
    Mr. Graves of Missouri. Thanks, Mr. Chairman.
    Mr. Thornberry. Next, we have the gentleman from New York, 
Mr. Hanna. Gentleman is recognized for 4 minutes.

 STATEMENT OF HON. RICHARD L. HANNA, A REPRESENTATIVE FROM NEW 
                              YORK

    Mr. Hanna. Thank you. Good morning, Chairman Thornberry, 
Ranking Member Smith, and other members of the committee. Thank 
you for taking the time to listen to me today.
    Over the course of almost 30 years in private business, I 
grew a small firm from the ground up that employed over 450 
people over time and successfully completed thousands of 
commercial and municipal projects in upstate New York. Given 
that experience, I know how important small business 
construction contracting is. It is an industry where small 
business can grow into large businesses. Construction 
contracting builds communities.
    However, there are a few small areas where the Federal 
Government's policies on construction contracting hurt small 
businesses, taxpayers, and agencies themselves. This is 
particularly important given the scope of Federal construction 
contracting. Construction and architect and engineering, or A&E 
contracting, represents about one in six prime contractor 
dollars awarded to small business. That was over $17 billion in 
prime contracts in the fiscal year of 2012.
    Therefore, as chairman of the Subcommittee on Contracting 
and Workforce of the Small Business Committee, I have 
introduced two bills this Congress and cosponsored a third 
intended to bring some commonsense reform to this area. I will 
discuss them briefly, and I am asking you to include them in 
this year's National Defense Authorization Act.
    The first, H.R. 776, the Security and Bonding Act of 2013, 
addresses surety bonding. As the construction projects get 
larger, it becomes harder for these small businesses to obtain 
necessary bonding to bid these projects. In these cases, they 
are sometimes forced to turn to disreputable sureties who issue 
worthless bonds that place the taxpayers at risk.
    This is a no-cost bill that makes it easier for small 
businesses to get legitimate bonds and that makes sure that all 
bonds are worth more than the paper on which they are written. 
This makes sure that agencies get a quality construction job 
and that taxpayers get what they pay for and small businesses 
get paid.
    The other two bills I want to discuss address the way we 
contract with A&E. The first is reverse auctions. While there 
is evidence that reverse auctions can be a good way to buy 
commodities, two studies by the Army Corps of Engineers 
demonstrated that it doesn't work for construction services 
contracts. Therefore, I introduced 2751, the Commonsense 
Construction Contract Act of 2013. This bill takes the lessons 
learned from the Army Corps of Engineers and applies them to 
other Federal agencies.
    Likewise, the Corps has also led the way on design-build 
contracting, implementing a two-phase approach to procurement. 
Given the cost of bidding for design work, the two-phase 
approach allows more businesses to compete and saves the 
government money. Unfortunately, all civilian agencies have not 
learned from the Army Corps of Engineers experience. So I have 
cosponsored 2750, the Design-Build Efficiency and Jobs Act of 
2013. This bill encourages other agencies to adopt the policies 
in place at the Army Corps of Engineers.
    While I encourage you to include all the contracting bills 
recently marked up by the Small Business Committee, given the 
significance of construction contracting, I hope you will 
incorporate 776, 2750, and 2751 into this year's National 
Defense Authorization Act. I am happy to answer any questions.
    [The prepared statement of Mr. Hanna can be found in the 
Appendix on page 86.]
    Mr. Thornberry. Are there any question of Mr. Hanna?
    Okay. Appreciate you being here. Thank you for your 
testimony.
    Mr. Hanna. Thank you for your time.
    Mr. Thornberry. Next, we will have the gentleman from 
Georgia, Mr. Broun. Gentleman is recognized for 4 minutes.

 STATEMENT OF HON. PAUL C. BROUN, A REPRESENTATIVE FROM GEORGIA

    Dr. Broun. Thank you, Chairman Thornberry, Ranking Member 
Smith, and members of the committee. I thank you all for the 
opportunity to come and testify before you today.
    As an original-intent constitutionalist, as well as a 
current Navy Reserve medical doctor, I view national security 
as the most important function of our Federal Government. While 
President Obama and many within his party would like to further 
cut our military and prioritize wasteful domestic spending over 
our national defense, I disagree with his approach. Instead, we 
should be strengthening our military and restoring its 
readiness in the face of ongoing geopolitical threats, as well 
as nonconventional threats.
    To this end, I appreciate your efforts to counterbalance 
the Senate and the executive branch in the past and urge you to 
continue to do so. That being said, I continue to have deep 
concerns over how the 2001 Authorization for Use of Military 
Force Against Terrorists, the AUMF, is being utilized.
    This hastily crafted response to the September 11, 2001, 
terrorist attack dramatically expanded the powers of the 
President, and yet few Americans are even aware of its 
existence. In just 60 words the AUMF opened the door to 
egregious abuses of Federal power. In particular, it allows for 
the indefinite detention of American citizens and broad 
warrantless wiretapping by the National Security Agency.
    The AUMF also paved the way to today's shadow drone war 
under the Obama administration that has quietly claimed the 
lives of at least four Americans. I appreciate the operational 
advantage we gain from using drones in our military operations, 
I saw those when I was deployed to Afghanistan in 2012, and I 
view them as a valuable asset.
    But it is unconscionable for the U.S. Government to kill 
its own citizens without first allowing them their day in court 
and due process. No administration has the right to be judge, 
jury, and executioner of American citizens.
    I was pleased that my amendment prohibiting drone strikes 
on American citizens was included in last year's NDAA as passed 
out of the House. But I am deeply disappointed that the 
language was dropped in the compromise.
    As such, I respectfully urge the committee to include the 
language from my amendment while crafting this year's 
authorization, as well as other language to constrain the 
powers of the AUMF, such as Ranking Member Smith's proposed 
amendment to prohibit indefinite detention.
    Mr. Chairman, it is my understanding that the Judiciary 
Committee has jurisdiction over the AUMF itself. However, the 
Armed Services Committee can, and in my opinion should, take 
the strongest possible action to prevent these specific abuses. 
At the same time, I hope the committee will include text, in 
plain language, clearly showing Americans that these 
disturbing, overly broad powers come from the AUMF and not from 
the NDAA itself.
    We need to ensure that people across the country know what 
powers the Federal Government believes it has and what legal 
justification it presents for those powers. Our war efforts and 
military activities must be tightly focused and kept within the 
bounds of the U.S. Constitution.
    America is a beacon of liberty and a force for good in this 
world only as long as we remain focused on keeping it that way. 
Liberty is too precious and we must continue to be ever 
vigilant in protecting it. We must never sacrifice our God-
given, constitutionally protected rights in the name of 
security or expediency. I am hopeful that this year's NDAA will 
stay true to these principles.
    Thank you again for the opportunity to testify before you 
today. I am glad to answer questions.
    [The prepared statement of Dr. Broun can be found in the 
Appendix on page 49.]
    Mr. Thornberry. Appreciate the gentleman being here to 
share his views. Are there any questions?
    Dr. Broun. Thank you, Mr. Chairman.
    Mr. Thornberry. Appreciate the gentleman.
    Next we have the gentlelady from Tennessee, Ms. Blackburn.
    Appreciate you being with us today. The gentlelady is 
recognized for 4 minutes.

   STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE FROM 
                           TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. I appreciate the 
opportunity to come and to be with you and to talk a little bit 
about Tennessee's Seventh Congressional District and the 
wonderful Army post, Fort Campbell, which is primarily 
headquartered in that district, and the brave men and women 
that call Fort Campbell home. We have got the 101st Airborne, 
the 5th Special Forces Group, and the Army's 160th Special 
Operations Aviation Regiment. Nearly 3,500 officers and 27,000 
enlisted personnel call Fort Campbell home.
    Like many installations across the country, Fort Campbell 
is facing reductions that will have an impact on military 
readiness, as well as on the installation infrastructure. I was 
so pleased to work with you and this committee last year in 
support of the Army Flying Hours Program. It is a vital program 
that provides aviation training resources for individual crew 
members and units according to approved aviation training 
strategies. In addition, it also provides individual and 
collective proficiency in support of ongoing combat and 
noncombat air operations.
    For aviation units like the 101st Airborne, this training 
is not only vital to mission success, but to the safety of our 
soldiers. Due to Army budget constraints, Army aviators will 
only be provided with 10.1 hours of training per crew per 
month. This is below the recommended requirement of 12.5 hours 
of training per crew per month. I ask the members of this 
committee to once again pay close attention to restoring the 
Army Flying Hours Program to its full capacity in fiscal year 
2015.
    I would also like to bring to the committee's attention the 
great need for Army installation infrastructure funding. As 
members of this committee may very well know, DOD's model calls 
for a level of funding to cover 80 to 90 percent of the needs 
of an installation. Currently, installations like Fort Campbell 
will be reliant on only 62 percent of the required funding set 
forth by DOD's model. This reduction in funding, if left 
unaddressed, will surely result in higher future costs to 
repair these important facilities.
    I fully believe that our Army readiness infrastructure is a 
key component to our full military readiness, and is one that 
must not be forgotten. I stand ready to work with the Army and 
the committee to address this important concern.
    Another issue that deserves the full attention of every 
member of this committee is that of security encroachment. I am 
greatly concerned that foreign companies are building and 
acquiring projects near DOD ranges and facilities that give 
them the ability to monitor sensitive activities. I believe 
that we should look at amending the Committee on Foreign 
Investment in the U.S. process so that DOD is able to raise 
proximity and foreign entity concerns when it is a co-lead 
agency reviewing a transaction. It is imperative that DOD is 
able to assess potential security threats related to foreign 
acquisition or ownership of assets, and has the ability to 
mitigate or prevent a transaction from moving forward.
    Thank you for allowing me to be with you, and I yield back 
the balance of my time.
    [The prepared statement of Mrs. Blackburn can be found in 
the Appendix on page 45.]
    Mr. Thornberry. Thank the gentlelady.
    Are there any questions? If not, again, appreciate you 
being here.
    Mrs. Blackburn. Thank you.
    Mr. Thornberry. Next we have the gentleman from Washington, 
Mr. Heck.
    Appreciate your testimony. Gentleman is recognized for 4 
minutes.

 STATEMENT OF HON. DENNY HECK, A REPRESENTATIVE FROM WASHINGTON

    Mr. Heck of Washington. Thank you, Mr. Chairman, and 
Ranking Member Smith. And, Mr. Chair, while I anticipated doing 
this on the floor, I cannot help but insert here that I spoke 
to my Aunt Catherine in Bowie last week, and she literally told 
me to tell you hello. So hello from my Aunt Catherine in Bowie, 
Texas.
    I thank the committee for allowing me to testify here today 
about our national defense priorities for the upcoming year. As 
the Member of Congress from the brand new 10th Congressional 
District of Washington State, I have the privilege to represent 
Joint Base Lewis-McChord [JBLM], one of the largest 
installations in the country. It is in the vicinity of 
Interstate 5 [I-5] that JBLM is located. This highway is the 
most heavily traveled north-south freight corridor in the State 
of Washington, carrying some 145,000 vehicles per day. Some say 
it is the most congested chokepoint between Vancouver, Canada, 
and Tijuana, Mexico.
    Nearly 80 percent of traffic to and from JBLM relies on I-
5, 80 percent. Local travelers in neighboring cities have no 
other option except to use the interstate as an arterial. When 
an incident occurs, it takes hours to recover. Backups of 
literally 6 miles or more starting at 6 a.m. are not rare, they 
are kind of expected.
    So take a moment, if you will, please, and imagine a van 
full of soldiers and civilian workers stuck on I-5. A truck 
directly behind the van could be full of goods waiting to be 
stocked on the shelves of a local warehouse. And in a car 
behind the truck behind the van there is a mom with a crying 
child waiting to get to the doctor. Take these three vehicles, 
now multiply them into miles of traffic and thousands of 
people. Imagine them not just in Washington State, but also 
stuck on Florida's State Route 85, Interstate 95, 395, or 495 
in the DC area. The almost daily question has become, what is 
the holdup?
    The truth is military installations are still adapting to 
base realignment and short-term growth caused by troops passing 
through before being deployed. Installation growth has had a 
significant effect on regional transportation, particularly 
when an installation is located in an urban area. Even 
acknowledging the potential for drawdown in military bases, 
those reductions would not nearly come close enough to solving 
the problem.
    Surrounding roads play an important role in preserving 
military readiness. Our Armed Forces need to instantly deploy, 
and we need functional roads in order for that to happen. The 
domino effect of delays due to congestion impairs our national 
security. This leaves not only military activities on base 
stranded, but also commerce in the community stranded as well. 
Goods can't move, companies lose money.
    To be clear, the military is not to blame for this. In 
fact, they have done a lot to help mitigate the problem. They 
know the opportunity costs associated with their soldiers and 
civilian workers being struck in traffic. Bases have come up 
with innovative approaches to ease the pain. But the problem 
remains severe and unavoidable without more investment. It is a 
Band-Aid over a wound that needs stitches.
    The only existing DOD program that provides funding for 
public highway improvements is the Defense Access Roads 
programs, DAR. It is limited by outdated and restrictive 
eligibility criteria. In fact, the DAR program began decades 
ago, when it was expected that bases would only be in 
relatively unpopulated areas. Because of the restrictive 
eligibility criteria, installations in urban areas, which feel 
the effects of installation growth more acutely, fail to 
qualify for DAR funding. Even when DAR applications are 
successful, it takes years.
    DAR also requires base commanders to choose between on-base 
projects or local roads. And that is not a fair decision, sir. 
Something should be done. And I ask that you consider upgrading 
the transportation improvement infrastructure around these 
bases as soon as possible as part of the fiscal year 2015 
National Defense Authorization Act.
    In coordination with State and local entities, the DAR 
program can be revised to pay the military's share of road 
improvements. A separate DOD program should also be established 
to fund the transit services necessary to meet the needs.
    Mr. Chairman, while I have been sitting here talking to you 
today think back to that van, that truck, and that car. Chances 
are just in the time I have been speaking they have only 
advanced about 50 feet. There is probably still going to be 
gridlock when this hearing ends, as a matter of fact.
    I know being stuck in traffic is not something unknown to 
most Americans. We are all too familiar with the horrible 
feeling of approaching an unexpected slow crawl on the road. 
But when this affects our military's ability to get to base, to 
do the job, and to be ready for anything, that is when we can't 
just sit and wait for it to get better. We can do more. Please, 
sir, consider updating regulations to meet this critical need, 
or we will need to find another way to address this 
unsustainable problem and situation. Thank you very much for 
your time.
    [The prepared statement of Mr. Heck of Washington can be 
found in the Appendix on page 88.]
    Mr. Thornberry. Thank the gentleman.
    The ranking member is recognized.
    Mr. Smith. Thank you, Mr. Chairman.
    And I know how bad the situation is there, having 
previously represented that area. I was going to say, you know, 
it was just fine when I represented it. But that is not true. 
It is a growing area. The base is growing, the population 
around it is growing. And I know that the folks at Lewis-
McChord have done on-base improvements, because there is a lot 
of areas where they can travel, stay on base instead of getting 
on the freeway. They have changed lights. They have tried to do 
a lot of things. Nothing that can be done unless there are 
improvements done on that piece of I-5.
    How would what you are asking for here dovetail with what 
could happen in a State transportation bill? You and I know how 
bogged down and terrible that process is. The State should have 
passed it a long time ago. But it is a huge priority. 
Eventually they might. Has there been money in the various 
proposals that have thus far died on the State level that would 
help this problem that we could potentially leverage with 
Federal funds?
    Mr. Heck of Washington. Yes, Congressman Smith, there was 
included in the version that was proposed in the Senate 
Majority Caucus Coalition substantial funds. And there were 
some funds included in the House-passed version as well. The 
proposal that I am in the late stages of developing, which 
would reform DAR, would in fact of necessity have to dovetail 
with State and local efforts. They cannot go separately. This 
is a shared responsibility, which I fully recognize.
    Mr. Smith. Absolutely. And I think that is our best 
approach, is to try to blend the different pieces and get 
enough money to hopefully improve the situation. But you have 
described it very accurately.
    Thank you, Mr. Chairman. I yield back.
    Mr. Thornberry. Other questions? Okay.
    Appreciate the gentleman being here and your testimony.
    Next the gentlelady from California, Ms. Chu. Appreciate 
you being with us today. The gentlelady is recognized for 4 
minutes.

  STATEMENT OF HON. JUDY CHU, A REPRESENTATIVE FROM CALIFORNIA

    Ms. Chu. Thank you, Chairman Thornberry and Ranking Member 
Smith, for the opportunity to testify today. First, I ask that 
my written testimony be entered into the record.
    Mr. Thornberry. All of the witnesses' written testimony 
will be made part of our record. Appreciate the gentlelady.
    Ms. Chu. Thank you.
    Six days ago, on April 3rd, marked the third anniversary of 
the death of my nephew, Harry Lew. Harry was an enlisted Marine 
deployed to Afghanistan. He took his own life after enduring 
over 3 hours of degrading physical, abusive hazing by his 
fellow Marines. In the wake of his death, I learned that 
Harry's story is not an isolated incident. There are other 
brave, dedicated members of our armed services who were 
needlessly subjected to physical and emotional torment at the 
hands of their peers.
    I am committed to ensuring that hazing in our Nation's 
military is addressed by the Department of Defense. The 
military needs to create a bond within a unit and provide 
useful training. But instead, hazing breeds fear and distrust 
of peers and leadership. Where hazing results in death or harm, 
there is often no justice for the victims. For the future 
safety of our service members and our country, we must 
eliminate hazing outright.
    For the past 3 years I have received encouraging support 
from the public, various advocacy groups, and fellow Members of 
Congress. Together, we included language in the fiscal year 
2013 National Defense Authorization Act requiring the 
Department of Defense to report to Congress on the manner in 
which hazing is reported, tracked, and prevented by each branch 
of the armed services. These reports revealed some startling 
trends and practices.
    First, substandard tracking systems result in unreliable 
data on hazing. Reports are unreliable because most branches do 
not track allegations or incidents of hazing separately from 
similar punishable offenses. Without a system solely in place 
to track hazing, the true scope of the problem remains unknown.
    Second, the branches that do not require hazing to be 
reported have more hazing incidents. The reports show that the 
branches with the highest numbers of hazing allegations do not 
require service members to report if they are hazed or witness 
hazing. It seems that policies that do not explicitly require 
service members to report hazing have thereby tacitly condoned 
the practice. This is a problem that must be rectified.
    But most importantly, much more information is needed. The 
lack of reliable statistics and other information in these 
reports underscores the need for an independent review of DOD 
hazing policies. As lawmakers, we must ensure we have 
objective, unbiased information on which to formulate policy.
    In light of the disclosures of the DOD hazing reports, I 
ask the committee to first request updated hazing reports from 
the Department of Defense. Most of the reports indicated recent 
or planned actions by the branches of service in their ongoing 
efforts to eliminate hazing. As we continue to refine and 
perfect DOD hazing policies, we will need the most up-to-date 
information on each branch's effort. An update to each branch's 
report will be crucial as we move forward.
    Secondly, I request that the Government Accountability 
Office [GAO] conduct an independent review of hazing within the 
Department of Defense. A GAO review of hazing that identifies 
problems, trends, and best practices amongst the branches of 
the military is vital to a better understanding of the scope of 
the hazing problem. The importance of unbiased information in 
the effort to eliminate hazing in the military cannot be 
understated. For the fiscal year 2015 National Defense 
Authorization Act, the inclusion of language requiring an 
independent analysis of DOD hazing policies is my top priority.
    The failure of Congress to follow through with our 
responsibility to provide civilian oversight of our Nation's 
military would be a disservice to Harry and all those who have 
suffered or lost their lives as a result of hazing. As the 
committee begins crafting the 2015 National Defense 
Authorization Act, I urge you to consider the impact of hazing 
on morale, unit cohesion, combat readiness, and the health of 
our troops and veterans. Thank you for your consideration of 
this request.
    [The prepared statement of Ms. Chu can be found in the 
Appendix on page 56.]
    Mr. Thornberry. Thank the gentlelady.
    Are there any questions?
    Thank you again for continuing to raise this issue and for 
being here today.
    Ms. Chu. Thank you.
    Mr. Thornberry. Appreciate the gentleman from Wisconsin, 
Mr. Ribble, being with us. We already agreed to have your 
written statement made part of the record. The gentleman is 
recognized for 4 minutes.

    STATEMENT OF HON. REID J. RIBBLE, A REPRESENTATIVE FROM 
                           WISCONSIN

    Mr. Ribble. Thank you, Mr. Chairman. And I want to thank 
you and Ranking Member Mr. Smith for letting me have some time 
this morning. It is not my intention to read my testimony. It 
has already been submitted for the record.
    Good morning, Chairman McKeon. It is good to see you here 
as well.
    But I wanted to just talk a little bit about the Littoral 
Combat Ships that are in part built in Marinette, Wisconsin. 
One of the concerns that I have as it relates to that, and I 
speak of it in my testimony, is that we are about to embark on 
a journey that could raise costs to the American taxpayer. 
Without regard to a determination about whether moving from 54 
ships down to 32 ships, I look at how those ships are being 
purchased over time. If in fact the contract is broken for a 
four-ship purchase in fiscal year 2015, breaking that contract 
does two significant things, in my opinion.
    One is it opens up the Navy for an increased cost on the 
remaining ships that will be purchased, because each shipyard 
was promised two ships per year in each year. If the contract 
is broken, they then can go back and renegotiate whatever the 
price is for the ships. And here we have a program that at the 
initial first run those ships were costing $650 million. They 
are now in a fixed contract price of $348 million. If we break 
that contract, the taxpayer will be subject to the difference 
in pricing however they can negotiate with the Navy.
    Secondarily to that, it goes more toward the fact that we 
want in this country, we want the private sector to invest in 
shipbuilding and in these shipyards. And in fact, private 
investment in the shipyard in Marinette, Wisconsin, exceeds 
$200 million on the promise that the Navy was going to build 
two ships a year there during the term of this contract.
    And so I feel that if we are going to continue to incent 
American shipbuilding, which the Navy needs, and we are going 
to be fair and honest to those shipyards, keeping our word to 
the letter of the contract is fairly essential to that end. We 
do not want to create a pattern in this country whereby 
American entrepreneurs and business owners make investments on 
the promise of the American taxpayer through its government and 
then have those promises broken, because it will be a 
disincentive for American investment in the very types of 
things, our national defense, that is so essential to the 
American people.
    And with that, Mr. Chairman, that concludes my remarks this 
morning, and I thank you for the time.
    [The prepared statement of Mr. Ribble can be found in the 
Appendix on page 129.]
    Mr. Thornberry. Appreciate the gentleman raising this 
issue.
    Any questions?
    Thanks again to the gentleman from Wisconsin.
    Mr. Ribble. Thank you.
    Mr. Thornberry. The gentlelady from New York.
    Welcome to the committee. Your full written statement will 
be made part of the record. And the gentlelady is recognized 
for 4 minutes for whatever testimony you would like to give.

  STATEMENT OF HON. GRACE MENG, A REPRESENTATIVE FROM NEW YORK

    Ms. Meng. Thank you, Mr. Chairman Thornberry, Ranking 
Member Smith, and members of the committee. Thank you for 
allowing me to testify on three bipartisan pieces of 
legislation that have the support of the House Small Business 
Committee. These commonsense proposals would increase the level 
of fairness that should be expected in any programs the 
government is involved in. Combined, they help small businesses 
avoid unnecessary expenses when seeking a government contract, 
ensure the Federal Government is not being ripped off, and most 
importantly, remove from the Federal procurement system the bad 
actors who corrupt it for those playing by the rules.
    Since I have only a few minutes and three bills to cover, 
my remarks will be brief. The Design-Build Efficiency and Jobs 
Act of 2013, H.R. 2750, would clarify when agencies should use 
a two-step process to buy design-build services. Design-build 
contracts offer well-documented benefits to the government, but 
can be very expensive to bid on, especially if the team is led 
by a small architect or engineer. Indeed, submitting a full 
proposal on one of these contracts routinely costs over a 
quarter million dollars. Given that most architects make less 
than a million dollars each year, this excludes well-qualified 
firms from bidding. Some have joked that they would be better 
served by taking the money to a casino.
    H.R. 2750 addresses this problem by allowing any qualified 
company to submit a technical proposal, which is significantly 
less expensive than a full-blown proposal. After the agency 
evaluates these technical qualifications, only the top five 
firms will be asked to submit a full proposal. Therefore, they 
aren't wasting bid and proposal dollars and time on contracts 
that they have no chance of winning.
    The government also benefits from this approach, which has 
already been adopted by the Corps of Engineers. By having more 
companies submit initial proposals, the government gets a 
better pool of initial competitors. However, since the 
government only needs to evaluate five full proposals, the 
government saves time and effort overall. This is truly a win-
win approach.
    Finally, the Security in Bonding Act of 2013, H.R. 776, 
addresses abuses of the surety bond process. Surety bonds are 
required whenever a company is doing construction work for the 
Federal Government, and these bonds ensure that the work is 
completed properly and that all subcontractors are paid. 
Unfortunately, there are well-documented cases where bad actors 
do not have the resources to back the bonds they issue, placing 
both the government and small subcontractors at risk.
    H.R. 776 requires that bonds be worth the paper they are 
printed on and that small businesses have access to quality 
surety bonds. This is a zero-cost solution that protects all 
parties to Federal construction projects.
    Also, the Commonsense Construction Contracting Act of 2013, 
H.R. 2751, improves the use of an often-abused procurement 
method, reverse auctions. Although reverse auctions may be 
acceptable for commodities or small items, several Corps of 
Engineers studies show that they are unacceptable in the 
construction industry. The practice should be ended 
immediately. The legislation is supported by subcontractors and 
prime contractors alike, and would result in a higher quality 
project for any Federal agency.
    Reverse auctions are a prime example of failing businesses 
competing in a race to the bottom. They will bid on projects at 
impractical levels in an attempt to keep the business afloat 
for a few more months. The projects, if completed, are shoddy. 
The Army Corps of Engineers has stopped using reverse auctions 
for construction services, but this legislation would ensure 
that ban is in place amongst all the Federal agencies.
    Thank you for your consideration of these bills. I hope you 
will strongly consider them for inclusion in this year's 
defense authorization.
    [The prepared statement of Ms. Meng can be found in the 
Appendix on page 107.]
    Mr. Thornberry. Appreciate it.
    Are there any questions?
    Appreciate, again, the gentlelady's testimony. Thanks for 
being here.
    Next we will have the gentleman from California, Mr. 
Lowenthal. The gentleman is recognized for 4 minutes.

  STATEMENT OF HON. ALAN S. LOWENTHAL, A REPRESENTATIVE FROM 
                           CALIFORNIA

    Mr. Lowenthal. Thank you, Chairman Thornberry and Ranking 
Member Smith and members of the committee, all of you. Thank 
you for allowing me this time to discuss with you the 
importance of STEM [science, technology, engineering, math] 
education for the Department of Defense, specifically the 
STARBASE program.
    Providing science, technology, education, and math 
education to America's youth is critical to the global 
competitiveness of our Nation. That we all agree upon. The 
STARBASE program engages local fifth-grade elementary students 
by exposing them to STEM subjects through an inquiry-based 
curriculum and is currently active in 56 congressional 
districts throughout the country.
    The program is carried out by the military services because 
the lack of STEM-educated youth in America has been identified 
as a future national security issue by the Department of 
Defense. Last year, both the House and the Senate rebuked the 
Office of Management and Budget [OMB], their proposal to 
terminate this critical program. And today I ask you once again 
to join me in restoring the STARBASE program at a modest 
funding level of $30 million.
    The Department of Defense STARBASE program is one of the 
most cost-effective programs throughout the Federal Government. 
It costs an average of only $343 per student. Last year, 3,062 
classes were conducted in 1,267 schools, among a diverse 413 
school districts throughout the country. More than 70,000 
students attended the program, bringing the total to over 
825,000 since its inception in 1993.
    STARBASE is one of the most educationally effective STEM 
programs as well, according to internal Department of Defense 
studies that show that pre- and post-STARBASE youths 
demonstrate undisputed improvements in STEM fields. Just as 
crucial is the positive dispositional change in youth that they 
experience after participating in this exciting, hands-on, 
experiment-based program.
    Changing our children's attitudes on math and science from 
negative to positive is a paramount achievement. Research shows 
that children begin to lose interest in STEM subjects as early 
as the fourth grade, and then subsequently they lose their 
motivation to select the necessary high school courses that 
will allow them to pursue STEM careers in college.
    As a Member of Congress, I fully appreciate OMB's desire to 
consolidate STEM programs across the spectrum into one funding 
line. However, this is a national defense issue and has been 
identified as such by the Joint Chiefs of Staff. STARBASE was 
created under the auspices of the Department of Defense to meet 
its critical needs in STEM-related fields. I respectfully 
request that this committee reinstate the STARBASE program and 
authorize it at $30 million for this and for future years.
    In conclusion, STARBASE inspires America's youth to 
discover technical career fields that are imperative for future 
national security challenges. We cannot lose this battle and 
concede our technical edge. And in conclusion, I can say I have 
visited my program. It is a wonderful program. These are 
students that would not be into science. It is one of the 
things that at our military base that the military does so well 
in bringing that kind of excitement to students that would 
never have that kind of motivation in the future. I think it is 
money well worth spent, and it is really in our Nation's best 
interests to promote this program.
    [The prepared statement of Mr. Lowenthal can be found in 
the Appendix on page 98.]
    Mr. Thornberry. Okay. Any questions? Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And, Mr. Lowenthal, we had testimony in front of one of our 
subcommittees in regards to DOD making, or the Pentagon making 
a decision to eliminate the program even though one of the 
services continued to provide it. And I believe it was the 
United States Army continued to provide it.
    Mr. Lowenthal. Right.
    Mr. Nugent. Because they felt that it was better to move it 
to Department of Education. And the interesting part about this 
conversation that we had with members of the armed services, 
they actually thought that was probably a bad idea to move it 
to Department of Education because of the focus that is lost in 
regards to, you know, Department of Defense issues, and 
particularly in regards to getting kids excited about their 
ability and how it is so important to the national defense. I 
think it was wrongheaded by DOD to make that decision.
    Mr. Lowenthal. I, too. I can just say I represent in 
southern California, in Orange County, the Joint Forces 
Training Base, which has one of the STARBASE programs. And we 
just last year dedicated a new building to the program. And I 
cannot tell you how excited those students are when they leave 
that program. Also the military in terms of the service that 
they provide to their community.
    I think that the uniqueness of targeting students who, many 
of them are at-risk students, who would never go on to science 
and technology, but because it is done by the military, because 
it is done in a particular way, it really excites those 
students. And there is no doubt, in terms of our national 
security, we need these students to be involved in science, 
technology, engineering, and mathematics.
    Mr. Nugent. I appreciate you bringing this to the attention 
of the committee, the whole committee. Thank you very much.
    Mr. Lowenthal. Thank you very much.
    Mr. Thornberry. Again, thank the gentleman for your 
testimony. We appreciate you being with us.
    Mr. Lowenthal. Thank you so much. I appreciate your 
listening.
    Mr. Thornberry. The gentleman from Kentucky, Mr. Barr, is 
next. Your full written statement will be made a part of the 
record, and you are recognized for 4 minutes for whatever 
testimony you would like to give.

  STATEMENT OF HON. ANDY BARR, A REPRESENTATIVE FROM KENTUCKY

    Mr. Barr. Thank you, Mr. Chairman. Thanks for the 
opportunity to speak before the House Armed Services Committee 
today.
    Once again, I come before you in support of our Active 
Duty, Guard, and Reserve components, as well as our veterans, 
to help ensure they receive the equipment and support they 
deserve. I believe that the National Guard and Reserve 
components are critical to our national security. And in order 
to safely and effectively complete their missions, they must be 
equipped with modern aircraft and the most updated avionics. I 
ask this committee to continue to help provide support for the 
National Guard and Reserve equipment account in order to help 
sustain accounts such as the Aircraft Modernization Program.
    In addition, one of my priorities is preventing reckless 
reductions of our military troop levels, especially within the 
Army National Guard. I respectfully ask that this committee 
postpone any decision that substantially impacts troop levels 
for the National Guard until the National Commission on the 
Structure of the Army publishes its final findings. This is too 
important to consider without the commission's recommendation, 
given that the decision could have a lasting and harmful impact 
on our Nation's readiness to engage threats to our allies and 
our national security. As we proceed toward a drawdown, a 
postwar drawdown, we ought to carefully consider not reducing 
the Guard and the Reserve components, which are the most cost-
effective components of our military.
    Several issues of concern have also been raised by my Sixth 
District Veterans Coalition. I know this committee remains 
committed to helping combat military sexual assault and provide 
the best care possible for survivors. I encourage this 
committee to consider incorporating legislation I have 
introduced, H.R. 3775, the Military SAVE [Sexual Assault Victim 
Empowerment] Act.
    This legislation would allow victims of military sexual 
trauma to choose treatment outside of the TRICARE or VA health 
care network that they would feel best fits their particular 
needs, so long as the care is in response to the MST [military 
sexual trauma]. The TRICARE or VA system would issue the victim 
a voucher which entitles the victim to seek care from a private 
provider, and serves as a promise by TRICARE or the VA to 
reimburse the private care provider for their services. This 
legislation can serve as an important tool in our ongoing 
efforts to help victims of military sexual assault.
    I am also aware of the committee's actions to help address 
mental health issues within the military. Tragically, the 
recent event at Fort Hood is a painful reminder of how 
important it is to continue to provide critical mental health 
services to our service members and veterans. As you know, the 
VA reported within the 2012 Suicide Data Report that an average 
of 18 to 22 service members and veterans commit suicide each 
day. Sadly, according to the latest report published in January 
by the Department, their findings still indicate no clear 
changes in suicide rates in the total population of Veterans 
Health Administration users or in male veterans overall. While 
I believe the DOD and VA are doing the best they can to 
properly administer many of its new suicide prevention and 
support programs, I also believe it is up to Congress to 
continue to provide these departments with the tools and 
resources they need to do more.
    I am also concerned about the backlog, the medical claims 
backlog. It has reached an unacceptable level of 611,000 
outstanding medical claims. According to the VA, claims have 
been reduced by more than 44 percent. And while I commend the 
VA on its efforts to reduce the claims backlog, actual 
reductions vary from facility to facility. Therefore, I urge 
this committee to commit additional resources to help ensure 
this issue is quickly resolved.
    Finally, I ask this committee's continued support in 
increasing public-private partnerships at all arsenals and 
depots. I represent the Bluegrass Army Depot. Public-private 
partnerships can play an important role in bringing long-term 
stability and jobs to communities, while increasing revenue to 
the Army Working Capital Fund. This committee has taken a 
leadership role in this regard in previous NDAAs, and I 
encourage this committee to continue to take an active role in 
this area, in addition to continuing to commit to fully funding 
the demilitarization efforts at the two remaining depots, in 
Pueblo and in my congressional district, in order to fulfill 
our treaty obligations.
    And with that, I yield back the balance of my time, and 
thank you for your leadership on these issues.
    [The prepared statement of Mr. Barr can be found in the 
Appendix on page 43.]
    Mr. Thornberry. Appreciate it.
    Any questions?
    Thank you, again, Mr. Barr, for your testimony. Appreciate 
you being with us today.
    Mr. Barr. Thank you.
    Mr. Thornberry. Now we will go to the gentleman from 
Pennsylvania, Mr. Perry. Thanks for your patience. The 
gentleman is recognized for 4 minutes.

     STATEMENT OF HON. SCOTT PERRY, A REPRESENTATIVE FROM 
                          PENNSYLVANIA

    Mr. Perry. Thank you, Mr. Chairman. I want to thank the 
committee for allowing me the opportunity to testify.
    I want to begin by saying that I am here in support of a 
study that includes a traditional force design, force 
development model. I want to say that everybody must sacrifice, 
and the Reserve component is no different in that regard. But I 
have asked what is driving this plan, because I can't seem to 
get the facts and what I see doesn't add up. The theme keeps 
changing. It started out with the cost. And then it was Guard, 
Reserve, their readiness is not where it is, they are not 
available. Then it changed to they don't do enough collective 
training. Finally, it was we don't have enough aircraft to do 
the mission, and they call it stacking, where the aircraft are 
in the mission set. But I can't get the information on that 
either.
    Regarding costs, we say we can't afford the R&D and 
replacement of the OH-58D. A 64 Echo model costs between $25 
and $30 million, yet an OH-58D costs $7.5 million, including 
the mast-mounted sight. I understand it is a legacy aircraft 
and we might want to get rid of it, but we have a platform 
readily available right now flown by the Special Operations 
Forces, which is the AH-6 or MH-6, which is a fabulous 
aircraft. The plan never mentions the cost of retraining 
everyone currently involved in flying and maintaining the AH-
64. It does not validate the need for more UH-60s in the 
Reserve component. And it does not adequately address increased 
costs of the UH-72 as the primary trainer.
    Regarding readiness, that we are not ready, the Guard flew 
more fiscal year 2012 AH-64 hours in CONUS [continental United 
States] than any other units in the Army. The flying hour and 
experience level in the Guard, this is where the experience is, 
Mr. Chairman. The Guard pilots have two to three more times 
hours and experience than their Active Duty component. It is 
not a dig on the Active component, it is just how it is. When 
people leave the Active component, they come to the Guard. If 
you really want the metric, look at the class A accidents in 
the AH-64 over the last year and where they occurred and why 
they occurred.
    We progressed more aviators. We progressed 60 aviators to 
RL [Readiness Level] 1 in 2 years not using any additional 
money. And I would ask, why are we now making Reserve component 
units look different than Active unit components? It not 
doctrinally correct.
    Availability. We have mobilized 12 battalions and 4 
companies in deployments, and we have answered every single 
request that has been asked.
    And I would also say this regarding the AH-64 as a 
reconnaissance platform. If you have to get it to theater, and 
this is coming from Active component, you cannot get it there 
in a C-17 because it does not land in nonpermissive 
environments. If you can't get the airframe to the fight, what 
does it matter what the airframe is? You know, you can buy five 
or six MH-6s for the cost of one 64, and you can get it to the 
fight, which is important.
    Regarding collective training, that we don't do collective 
training. I can list the number of instances, but right off the 
bat training with Special Operation Forces grew on an Active 
Duty basis, joint live fire exercises, air-ground integration, 
monthly JTAC [Joint Terminal Attack Controller] training. I 
would ask this. Why are we requiring battalion-level collective 
training for employment when on employment uses Scout Weapons 
Team. And I would also say if you just Google this or go by AKO 
[Army Knowledge Online], the guidance memo for a particular ARB 
[Air Reserve Base] under a certain cab shows that Active 
component ARBs are not training at company level either, and 
they are focusing on air weapons training proficiency. And that 
is open source.
    Regarding mission accomplishments and stacking. I was in a 
meeting a couple weeks ago, and I was told we don't have enough 
aircraft to do it. And it was about basing. I said, fine, I 
agree, if that is the case. Show me the plan.
    We asked last Thursday, what is the plan? What is the 
requirement? We can't get it. If we can't get it, I think it 
raises some doubt. And I would also say there is a U.S. Army 
War College study that says that ARI, the Aviation Restructure 
Initiative, is resource driven, not mission driven. And I would 
harken back to a time when we had 58 Sherman and M60 tanks in a 
unit, and because of capability we went down to 29 tanks. The E 
model Apache is wildly capable. I know you are going to cut me 
off, sir, and I appreciate that. If you remember anything else 
from this briefing, remember this: We have not been given 
sufficient facts to support this decision.
    And I thank you. And I yield back.
    [The prepared statement of Mr. Perry can be found in the 
Appendix on page 119.]
    Mr. Thornberry. Thank the gentleman. Lots of information. 
If the gentleman would indulge, I think the gentleman from 
Florida has a question.
    Mr. Nugent. I just want to thank you for bringing this 
forward. This is one of the issues that we have been having as 
it relates to the restructuring, particularly as it relates to 
the Army National Guard aviation unit. You know, my son is an 
Army aviator in the National Guard, and I think he gets as much 
or more flight time than his Active Duty brethren. And they are 
actually, I know, training live fire and everything else this 
summer for an extended period of time to do all those things 
that big Army is saying that they are not capable of doing.
    Plus, that is ignoring the State mission that they have 
that is hugely important to States like Florida as it relates 
to--you know, the plan is to reduce the number of UH-60s in 
Florida. And you go, how does that work in reality when the 
Florida Army aviation unit has been deployed multiple times 
into Iraq and Afghanistan, but also into Europe to support that 
mission? It is amazing that we would cut that resource. And I 
appreciate your comments in that regards to that.
    Mr. Perry. I would just hope, again, that we would follow 
the paradigm of figuring out what the mission is and then 
figuring out what the force would look like. This is not 
following that paradigm that has been followed time and time 
again.
    Mr. Nugent. If you look at it, remember the Army first 
talked about taking Lakotas away from the National Guard and 
use those as a training bird at Rucker, and it would have 
eliminated that whole vast training experience that you 
currently have at Rucker, because they have never flown a 
Lakota. And they are not durable enough to actually be in a 
training mission, because when my son was learning at Rucker, I 
mean, they pretty well abused those aircraft, and that airframe 
is not capable of doing it. So I want to thank you.
    Mr. Perry. I wouldn't say it is not necessarily not 
capable, but it is a two-engine aircraft. The cost is not 
addressed in this. The OH-58, the TH-67, the jet Ranger is a 
highly prolific aircraft.
    Mr. Nugent. And what they were telling us and those that I 
know that are extremely good pilots were saying that the reason 
they are not as durable is because they say, well, you don't 
have to do the type of training with it. But if you did, they 
would be replacing skids daily.
    Mr. Perry. Exactly. And the Lakota, having to land with the 
engine off, because you only have 1 in a 58, the training that 
you get from that, that lasts for the rest of your life, is 
immeasurable.
    And I would also say this, with all due respect. When we 
lose this talent pool, which is what we are talking about, 
talent management, you can run a new aviator through Fort 
Rucker once a year. Every year you can get a whole crop of new 
ones. But the proficiency level that you lose from a 4,000- or 
5,000-hour aviator is what you don't get. Yes, you have an 
aviator with 190, 250 hours. But when you are in combat, that 
4,500 hours is really what makes the difference. And that will 
be gone. And you cannot get that quickly. You cannot get that 
quickly. It takes time and experience. And that is what we are 
throwing away. There is no operational depth in this plan.
    So I would just say let's study it, let's take a look at 
it, and let's use the method that has been used time and time 
again, as opposed to this just quick reaction to a budgetary 
problem. Which I understand the considerations. But I think 
this needs further review.
    Mr. Nugent. My time has expired. I yield back. Thank you so 
much.
    Mr. Thornberry. Appreciate again the testimony of the 
gentleman and the issues he raised.
    Next we have the gentlelady from the State of Missouri, Ms. 
Wagner.
    Appreciate you being with us. You are recognized for 4 
minutes.

  STATEMENT OF HON. ANN WAGNER, A REPRESENTATIVE FROM MISSOURI

    Mrs. Wagner. Thank you very, very much. I appreciate also, 
Vice Chairman Thornberry, the members of the committee, thanks 
again for the opportunity to talk about a key defense priority 
for the United States Navy and our Nation, the EA-18G Growler. 
The 2014 Quadrennial Defense Review notes, and I quote, ``In 
the coming years, countries such as China will continue seeking 
to counter U.S. strengths using anti-access and area-denial 
approaches.'' Full spectrum airborne electronic attack has been 
identified by the Navy and the Department of Defense as a 
critical and required capability for our forces to effectively 
and successfully operate in these challenging environments. As 
the Chief of Naval Operations [CNO] Admiral Jonathan Greenert 
has stated, control of the electromagnetic spectrum is critical 
to the warfighting mission today and in the future.
    As you know, the Growler is the Nation's only full-spectrum 
airborne electronic attack aircraft. It provides this unique 
capability off of Navy aircraft carriers and provides support 
for joint force land bases. It is truly the tip of the spear as 
our forces enter into contested air environments.
    Recognizing that there is a warfighting need, the CNO 
submitted an unfunded priority of 22 additional Growlers for 
congressional consideration of the fiscal year 2015 defense 
appropriations. The stakes are quite high, and the time to act 
is now. Without additional Growlers to meet the Navy's unfunded 
priority, it is likely that the F/A-18 manufacturing line will 
shutter. To avoid this very predicament, last year Congress 
added $75 million in advanced procurement funds for the F/A-18 
in the fiscal year 2014 Defense Appropriations Act, enough for 
22 aircraft.
    Another critical consideration is the Nation's defense 
industrial base for tactical aviation. Today there are multiple 
providers for tactical aviation, sophisticated tactical radars, 
and strike fighter engines. With the end of the F/A-18 
production, however, DOD will be left with only a single 
manufacturer in each one of these areas. This scenario limits 
warfighting surge capacity, it eliminates competition that 
drives innovation and cost control, and imperils future 
development programs. Moreover, the F/A-18 program supports 
American manufacturing, including 60,000 jobs, 800 different 
suppliers and vendors, and provides $3 billion in annual 
economic impact.
    For these reasons, I have authored a House letter to your 
committee asking for consideration of the Navy's unfunded 
priority of additional Growlers. I hope it demonstrates to you 
that there is a broad bipartisan support for this request 
across Congress to support both the warfighter and the defense 
industrial base. I look forward to working with this committee 
and supporting the process as the National Defense 
Authorization Act moves through the House of Representatives. 
And I thank you.
    [The prepared statement of Mrs. Wagner can be found in the 
Appendix on page 154.]
    Mr. Thornberry. Thank the gentlelady.
    Any questions? Great.
    Appreciate the gentlelady being here and for her testimony 
on this issue.
    Mrs. Wagner. Thank you.
    Mr. Thornberry. Next we will have the gentleman from 
Arkansas, Mr. Crawford.
    Your full written statement will be made part of the 
record. And the gentleman is recognized for 4 minutes for 
whatever comments he would like to make.

 STATEMENT OF HON. ERIC A. ``RICK'' CRAWFORD, A REPRESENTATIVE 
                         FROM ARKANSAS

    Mr. Crawford. Thank you, Mr. Chairman. Good morning, 
Ranking Member Smith, Chairman McKeon, distinguished members of 
the committee. I thank you for the work you do to preserve the 
security of our great Nation, and for allowing me to testify 
before the full committee regarding explosive ordnance disposal 
[EOD] priorities for fiscal year 2015 in the National Defense 
Authorization Act.
    I myself served in the Army as an EOD tech. I am proud to 
be a cofounder, along with committee member Susan Davis, of the 
House EOD Caucus. EOD soldiers, sailors, airmen, and Marines 
are the military's preeminent team of warrior explosive 
experts. They are trained and equipped to identify and 
neutralize explosives used by terrorist networks across the 
globe. EOD techs protect their fellow military personnel and 
civilians from these threats, while providing support across a 
wide range of military and civilian national security 
operations.
    EOD forces have proven to be game changers in attacking and 
dismantling terrorist cells and associated networks. These 
forces will continue to be indispensable assets for the 
foreseeable future, supporting counterterrorism operations, 
building the capacity of partner nations, and protecting the 
homeland through providing support to civilian law enforcement 
agencies at Federal, State, and local levels.
    There are an estimated 66,000 call-outs annually across the 
United States on explosive ordnance by interagency, military 
EOD, and public safety bomb squads. Army EOD units responding 
under immediate response authority have historically departed 
their home station installation within 30 minutes of 
notification during duty hours and 60 minutes off-duty, 365 
days a year. On these civil support missions, EOD provide 
support to civil law enforcement agencies, but they do not 
perform law enforcement activities.
    The Boston bombings serve as a stark reminder of the threat 
of the terrorist detonation of explosives in the United States 
and have revealed gaps in the Nation's ability to defeat a 
sustained bombing campaign in the homeland.
    I note that military EOD immediate response included the 
387th Ordnance Company EOD from Camp Edwards, Massachusetts, 
which responded to 64 call-outs during the Boston bombing.
    However, I have concern that following these attacks, the 
Army Forces Command issued guidance that the local Staff Judge 
Advocate must review every civil authority request for 
emergency EOD response prior to sending aid to ensure the 
support does not violate the Posse Comitatus Act of 1878. In 
addition, the guidance requires that a senior commander, 
normally a three- to two-star general, must then approve each 
of these EOD immediate responses and must ensure that civil 
authorities will reimburse the Army as a condition of immediate 
response.
    I understand the need to ensure that EOD is compliant with 
Posse Comitatus in any of its civil support missions, but it is 
vital that we do not overcorrect and negatively impact the 
ability of our EOD forces to provide increasingly needed and 
immediate support to our civilian law enforcement agencies. It 
is further problematic that under the recent Army Forces 
Command guidance, the responding EOD units must now seek 
reimbursement from local, State, and Federal law enforcement as 
a precondition for providing the requested military EOD 
support.
    On April 4, 2014, I met with the general officer that has 
the training readiness authority for the Army Forces Command to 
EOD units. I have grave concerns over his proposed 
reorganization of the Army EOD force structure, reorganization 
of Army EOD force modernization and branch proponents, and 
reorganization and restationing of EOD tactical units and EOD 
institutional activities.
    The significance as well as the irreversibility of these 
proposed actions deserves the committee's close scrutiny and 
oversight, and I respectfully request that you and the 
committee seek more information and further require the 
Department to justify these proposed changes before permitting 
any of them to proceed.
    We must also ensure that our EOD units, like the 387th out 
of Massachusetts, are properly equipped to respond to explosive 
threats in cities and towns throughout the homeland. The MRAP 
[Mine-Resistant, Ambush Protected] vehicles for EOD operations 
in Afghanistan are a good place to field excess MRAPs to the 
Army National Guard EOD units, comprising one-third of Army EOD 
Force, need response vehicles like the MRAP.
    As I am running low on time, I will just continue to submit 
these statements for the record and just ask for your 
consideration, and any questions you might have I will be happy 
to answer them.
    [The prepared statement of Mr. Crawford can be found in the 
Appendix on page 65.]
    Mr. Thornberry. Any questions?
    I appreciate the gentleman's input on these issues and his 
continued leadership and expertise, which we will continue to 
take advantage of. So I appreciate very much the gentleman 
being here.
    Next, we will turn to the State of North Carolina, 
distinguished gentleman, Mr. Hudson.
    Appreciate you being here. Recognized for 4 minutes.

 STATEMENT OF HON. RICHARD HUDSON, A REPRESENTATIVE FROM NORTH 
                            CAROLINA

    Mr. Hudson. Thank you, Mr. Chairman. I want to thank you 
and Chairman McKeon and Ranking Member Smith for the 
opportunity to share with you some of the national security 
priorities that I hold for the upcoming year on behalf of the 
Eighth District of North Carolina.
    As I have traveled around my communities in my district in 
North Carolina, people have consistently told me that restoring 
fiscal responsibility is their number one priority, and they 
sent me to Washington to force the government to live within 
its means. Accordingly, I am committed to cutting spending, 
reducing the size of government, promoting economic growth, and 
balancing our budget. That means we have to focus on 
priorities, priorities like a strong national defense.
    Today, I would like to discuss a number of issues, namely 
the challenges that we face, along with our allies and 
partners, the commitments we have made to our men and women in 
uniform, and the importance of ensuring accountability and 
transparency when trying to maintain a strong national defense 
in a very tough budget environment.
    While we have seen the gradual reduction of core Al Qaeda 
influence, it is important to remember that we continue to be 
engaged in a global conflict against increasingly factionalized 
groups that seek to do us harm along with the states that 
support them. A failure to exercise U.S. diplomatic and 
military leadership means nuclear states like Iran and North 
Korea will be able to bully the international community, both 
through direct means and through their proxies.
    North Carolina is fortunate to be home to over 700,000 
proud veterans, and I am fortunate to represent a district that 
has a strong military presence given its proximity to Fort 
Bragg. I just returned from a productive visit to Camp Mackall, 
an extension of Fort Bragg, where some of America's finest 
train to become part of the special forces, and I am pleased to 
report on their fine work.
    The men and women of Fort Bragg have matchless capabilities 
and a unique mission. I look forward to continuing working with 
the base to ensure their priorities are met when it comes to 
equipment, facilities, and training. As the United States 
increases its special operations and airborne operations 
presence, it is critically important that we support in-depth 
training and techniques, an area where Fort Bragg continues to 
excel.
    I look forward to working with you and this committee to 
provide the necessary resources to ensure the utmost success of 
our dedicated men and women in uniform there. While I recognize 
this committee does not intend to reauthorize or make changes 
to the authorization of military force this year, I would still 
like to take a moment to touch on the issue given its continued 
important in regard to civil liberties and our ability to 
effectively prosecute terrorists.
    I would like this committee to note that I will not support 
trading our guaranteed civil liberties for the promise of 
security. With that said, I also refuse to stand by and allow 
terrorists to be treated as common criminals. The 
administration has taken this stance when it comes to pursuing 
those involved in the deadly September 11 attack on the U.S. 
Embassy in Benghazi, and we have all seen the failure in 
results this approach has led to. Waving subpoenas in the face 
of radical militants is simply not the way to protect America's 
interests.
    This approach is also apparent in the administration's 
attempt to close the prison in Guantanamo Bay and transfer over 
150 terrorists to U.S. soil or return them home to their home 
nations. I cannot and will not support policies like this that 
threaten Americans around the world.
    The United States is a nation built on the premise of 
liberty and constitutional rights. We preserve a unique 
separation of powers so that we can ensure not one branch has 
too much power. The programs in the NDAA, like any other, fall 
within that system, and it is our duty as elected 
representatives to ensure it does not violate our privacy or 
civil liberties.
    Thanks to the committee for the opportunity to speak today, 
and thank you for your commitment to our Nation's warfighters 
and their families. Thank you. I yield back.
    [The prepared statement of Mr. Hudson can be found in the 
Appendix on page 90.]
    Mr. Thornberry. Appreciate the gentleman. And committee 
appreciates his input. Thank you for your testimony.
    Next, we have the distinguished gentleman from California, 
Mr. Nunes.

STATEMENT OF HON. DEVIN NUNES, A REPRESENTATIVE FROM CALIFORNIA

    Mr. Nunes. Thank you, Mr. Chairman. I just have a brief 
statement for the record, and I am also submitting it for the 
record.
    Mr. Thornberry. And without objection, we previously made 
any written materials you want to include, including your full 
written statement, part of our record.
    Mr. Nunes. And I also have a slide that I would like to 
draw your attention to as I am giving my statement.
    [The information referred to was not available at the time 
of printing.]
    Mr. Nunes. I would like to submit the GAO report for the 
record titled ``Defense Headquarters: DOD Needs to Reassess 
Options for Permanent Locations of U.S. Africa Command.''
    [The report referred to can be found in the Appendix 
beginning on page 165.]
    Mr. Nunes. Amid the challenging budgetary situation now 
facing the U.S. military, opportunities for significant cost 
savings have been identified in AFRICOM's [Africa Command] 
operations. I am proposing the relocation of AFRICOM 
headquarter stateside. The Government Accountability Office, 
GAO, reported that the transfer would save $60 million to $70 
million annually. Additionally, GAO estimated that the move 
would create 4,300 U.S.-based jobs and infuse $350 million to 
$450 million into the local economy.
    The office found no--and I want to repeat no--
substantiating evidence or rationale for the DOD's decision to 
keep AFRICOM headquarters in Germany. In fact, the placement of 
AFRICOM's headquarters in Germany was supposed to be temporary 
and was done merely out of convenience since it was spawned out 
of EUCOM [European Command]. This proposal would move AFRICOM 
stateside and have it operate much like CENTCOM [Central 
Command] and SOUTHCOM, which have their headquarters stateside 
with forward operating locations near the theater in order to 
conduct operations.
    In conjunction with this transfer, I would also say that 
Lajes Field base, which is in the middle of the Atlantic Ocean, 
should serve as a forward-operating base and a logistical hub 
for AFRICOM. The Azores base recently has had $150 million in 
upgrades to it. It is really one of the Taj Mahals of all U.S. 
Air Force bases around the globe. And it is really not being 
used; and in fact, USAFE [U.S. Air Forces in Europe] is trying 
to close the base.
    I think this would be a strategic error, as I presented to 
this committee last year, and I was thankful actually that this 
committee found that that was a very poor decision on behalf of 
USAFE. And that is why this committee put in the bill last year 
strong language that said that no troops should be withdrawn. 
In addition, Defense Appropriations put in a similar rider.
    And so what I have been looking to do is, how do you save 
money and also get our warfighters closer to the battlefield 
and create efficiencies. I believe that this is a strong way to 
do it, and I would urge the committee to give it serious 
consideration.
    And with that, Mr. Chairman, I would like to yield back for 
questions.
    [The prepared statement of Mr. Nunes can be found in the 
Appendix on page 110.]
    Mr. Thornberry. Let me just say, I appreciate the 
gentleman's leadership on this issue and continuing to raise 
questions about current plans and better options. And I 
appreciate the material that the gentleman has submitted. I 
think that will benefit the committee in looking at these 
issues.
    So, again, thank you for being here. Thank you for your 
testimony.
    Mr. Nunes. Thank you, Mr. Chairman.
    [The prepared statements of Mr. Roskam, Mr. Young of 
Indiana, Mrs. Lummis, Mr. Pascrell, Mr. Rothfus, Mr. Collins of 
New York, Mr. Rahall, Mr. Gardner, Mrs. Bustos, Mr. Cuellar, 
Mr. Chabot, Mr. Johnson of Texas, Mr. Sablan, Mrs. McMorris 
Rodgers, Mr. Fincher, Mr. Gosar, Mr. Williams, and Mrs. Roby 
can be found in the Appendix.]
    Mr. Thornberry. And with that, the committee stands 
adjourned.
    [Whereupon, at 12:05 p.m., the committee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             April 9, 2014

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 9, 2014

=======================================================================

      
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 9, 2014

=======================================================================

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
  

                                [all]
</pre></body></html>
